                           September 24, 2004




NASA’s Travel Module Lacks Management
Control Structure and Compliance With
Federal Requirements

(IG-04-027)




Released by: Original Signed By

David M. Cushing, Assistant Inspector General for Auditing
In Brief
What We Did                                 What We Found
We performed an audit of the travel         We found that the travel module was not
module to determine if the module           in compliance with JFMIP requirements
(1) complied with requirements              for Federal travel systems in two key
established by the Joint Financial          areas: (1) required reporting capabilities,
Management Improvement Program              and (2) interface with the core financial
(JFMIP)—a joint and cooperative             system. The lack of compliance with
Federal undertaking of the                  JFMIP requirements in those two areas
Department of the Treasury, the             created a management control weakness
Government Accountability Office,           in which NASA management was
the Office of Management and                unable to monitor and document Agency
Budget, and the Office of Personnel         travel expenditures and transactions
Management designed to improve              from initiation through final posting to
financial management practices in           Agency accounting records. In addition,
Government, and (2) contained               because of the reporting and integration
appropriate management controls             limitations, it was impossible to
for monitoring NASA’s                       determine whether, in accordance with
expenditures of approximately               Federal Travel Regulations, NASA
$59 million of annual travel funds.         travelers were reimbursed within 30
We also attempted to determine              days or whether interest was paid when
whether NASA travelers were                 reimbursements were late. In other
reimbursed timely and, if not,              words, no mechanized insight existed
whether interest was paid for late          for determining if the system was
reimbursements.                             working properly.


What We Recommended
We made eight recommendations to NASA to guide the Agency in ensuring
that the travel module meets all JFMIP requirements for reporting capabilities
and interfaces effectively with the core financial system. NASA management
concurred with each recommendation and has taken or has planned corrective
actions that meet the intent of our recommendations. Management stated that it
is now finally able to monitor travel documents from initiation through final
posting. To ensure that proposed actions will completely resolve all reporting
and interface issues, we have left the recommendations open pending our
verification of management’s implemented and planned actions.
                       NASA Office of Inspector General

IG-04-027                                                          September 24, 2004
 A-01-061-04

   NASA’s Travel Module Lacks Management Control Structure and
              Compliance With Federal Requirements

Introduction
As part of its Integrated Financial Management Program (IFMP), NASA purchased as the
Agency travel system a commercial-off-the-shelf software package—Travel Manager
(TM)—from Gelco Information Network, Inc. NASA implemented the travel module on
April 30, 2003, at an initial estimated life-cycle cost of $64 million. The travel module
was designed to provide a standardized, fully integrated and paperless travel system as
well as streamline the Agency’s travel process with more efficient use of resources.

We performed an audit of the travel module to determine if the module (1) complied with
requirements established by the Joint Financial Management Improvement Program
(JFMIP)—a joint and cooperative Federal undertaking of the Department of the Treasury,
the General Accounting Office (now the Government Accountability Office), the Office
of Management and Budget, and the Office of Personnel Management designed to
improve financial management practices in Government, and (2) contained appropriate
management controls for monitoring the approximately $59 million of annual travel
funds. We also attempted to determine whether NASA travelers were reimbursed timely
and, if not, whether interest was paid for late reimbursements.

Executive Summary
We found that the travel module was not in compliance with JFMIP requirements for
Federal travel systems in two key areas: (1) required reporting capabilities, and
(2) interface with the core financial system. The lack of compliance with JFMIP
requirements in those two areas created a management control weakness in which NASA
management was unable to monitor and document Agency travel expenditures and
transactions from initiation through final posting to Agency accounting records. In
addition, because of the reporting and integration limitations, determining whether, in
accordance with Federal Travel Regulations, NASA travelers were reimbursed within 30
days or whether interest was paid when reimbursements were late, is impossible. In other
words, no mechanized insight exists for determining if the system is working properly.

The ability to monitor and document Agency travel expenditures and transactions from
initiation through final posting to Agency accounting records is essential to ensure that
travel funds are used and accounted for appropriately. Without that documentation,
management does not have assurance that travel funds: are used in accordance with the
Agency mission; are protected from waste, fraud, and mismanagement; and comply with
laws and regulations. The Government Accountability Office’s Standards for Internal
Control in the Federal Government require that transactions be promptly recorded to
maintain their relevance and value to management in controlling operations and making
decisions. This requirement applies to the entire life of a transaction or event from
initiation and authorization through final classification in summary records.

We recommended that NASA ensure that the travel module meets all JFMIP
requirements for reporting capabilities and interfaces effectively with the core financial
system. NASA management has taken or has planned corrective actions that meet the
intent of our recommendations and stated that it is finally able to monitor travel
documents from initiation through final posting. To ensure that proposed actions will
completely resolve all reporting and interface issues, we have left the recommendations
open pending our verification of management’s implemented and planned actions.

Findings and Recommendations

Required Reporting Capabilities

The JFMIP states that management must document travel information so it is easily and
readily available for monitoring (see Appendix C). TM did not comply with that JFMIP
requirement because it could not produce standard, ad hoc, or other required products.
Such products include reports documented in requirements for the TM system and reports
NASA and other Federal Government agencies need (Appendix D lists some of the
specific reports not produced). The system could not produce ad hoc reports that are
necessary for analyzing, monitoring, researching Agency travel data, and ensuring proper
use and accountability of travel funds.

TM’s non-compliance with reporting requirements occurred because NASA did not
adequately address the results of its own three functional gap analyses performed on the
TM during its development in 2001, 2002, and 2003. A gap analysis is a study of two
information systems, designed to identify differences and used to implement a new
system. The gap analyses were performed to determine how to implement TM and to
close the gaps between the legacy travel systems and TM. The resulting reports from the
gap analyses stated that reporting in the TM was a serious problem. A significant
deficiency cited in TM was its inability to define and produce on-line and hardcopy
standard and ad hoc reports. The 2003 report stated that data were not available in TM
and provided possible options to fix the reporting problems.

The recommended option in the 2003 gap analysis was to have Gelco provide a daily file
in an agreed-upon format that would allow users to access the file and run needed reports.
NASA provided data warehousing software to produce some of the needed reports;
however, that software did not fix the reporting problems. The March 2003 gap analysis
stated that mandatory reports could be created if TM was designed to use miscellaneous
fields that could capture the necessary data as well as custom reports written to extract
this data. The TM project office also provided the IFMP Headquarters Program Office
with the gap analysis reports on reporting deficiencies and formally presented the

                                             2
reporting problems in November 2002 to the IFMP Headquarters Program Office, before
TM was implemented.

In an attempt to meet the implementation schedule, management instituted the travel
module with the known reporting deficiencies. IFMP officials stated that they intended
to develop a more robust reporting capability after the travel module was implemented.
IFMP officials stated that an effort is underway to create a travel reporting capability that
works with the Business Warehouse (BW). BW is the NASA-wide, Web-based reporting
tool that enables data analysis from the core financial system software.

The travel module’s inadequate reporting contributed to a management control weakness
in which management was unable to (1) produce a standard or ad hoc report, (2) identify
and resolve 1,821 questionable travel transactions we identified during our audit,
(3) certify the integrity of travel data, (4) provide adequate service to NASA travelers,
and (5) accurately calculate days required to pay travelers and interest owed to travelers
for late payments.

During the audit, NASA management was unable to provide us with a standard or ad hoc
report of very basic travel information to meet our audit objective of determining how
long travel payments were taking to process and whether interest was paid. We needed to
have travel payment and interest information on 1,821 transactions we identified during
the audit that were processed since TM was integrated with the core financial system, and
that information could not be provided electronically or manually. As a result,
management was not able to detect travel errors or monitor the travel data of the Agency
and therefore ensure proper use and accountability of funds. Also, NASA could not
determine whether NASA travelers were paid within the required 30 days and whether
interest was paid when reimbursements were late, as the Federal Travel Regulation
requires. Appendix E provides additional details on the effects of the inadequate
reporting.


Recommendations, Management’s Response, and Evaluation of Management’s
Response

The Program Executive Officer for IFMP should:

   1. Ensure that reports identified in the functional gap analyses published in
      2001, 2002, and 2003 are developed for and deployed to TM users (see
      Appendix D).

Management’s Response. Concur. NASA went through an extensive process using the
TM user community, including representatives from the Center travel offices, to create
and validate useful reports for TM users. Those reports, which will be available to all
users in October 2004, will meet requirements and eliminate reporting gaps. The
complete text of management’s response is in Appendix F.



                                             3
Evaluation of Management’s Response. Management’s action is responsive to the
intent of the recommendation. The recommendation is resolved but will remain
undispositioned and open for reporting purposes until we verify the system’s reporting
capabilities in October 2004. At that time, we will re-examine user satisfaction of TM’s
reporting capability at NASA’s Headquarters and Centers.

   2. Ensure that an ad hoc reporting tool is developed to produce needed reports.

Management’s Response. Concur. A number of BW reports and new data elements
have been developed to extract travel data. The reports, in conjunction with the
additional reports scheduled for release in October 2004, will fulfill the recommendation.
See Appendix F.

Evaluation of Management’s Response. Management’s action is responsive to the
intent of the recommendation. The recommendation is resolved but will remain
undispositioned and open for reporting purposes until we verify the system’s reporting
capabilities in October 2004. At that time, we will examine user satisfaction with the
BW reports provided and determine how user needs are met outside of BW.

   3. Determine if NASA owes interest on the 1,821 questionable vouchers we
      identified, and if appropriate, pay the travelers.

Management’s Response. Concur. The NASA Centers were tasked to analyze the data
to determine if travelers were paid correctly. Results of Center analyses indicated that
NASA owes approximately $700 in interest to travelers. The interest payments to
travelers will be complete by August 30, 2004. See Appendix F.

Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and
open for reporting purposes until we review the Center explanations on the questionable
vouchers and verify the interest payments in September 2004.


Interface With the Core Financial System

JFMIP financial system requirements state that systems must be designed with effective
and efficient interrelationships between items such as software and data contained within
systems. JFMIP requirements add that for systems to be efficient and effective, they
must be linked together. JFMIP specifies that the interface between a travel module and
the core financial system must be linked to ensure data accuracy and integrity
(see Appendix C). NASA did not comply with the JFMIP requirements. We found the
interrelationship between TM and the core financial system was not effective and
efficient because the two systems did not (1) share a common record format,
(2) effectively communicate with one another during transaction processing,
(3) effectively retrieve certain data fields, and (4) produce control totals to ensure that



                                             4
data were processed correctly. As a result, travel funds could not be tracked accurately
and properly accounted for. Details of the problem areas follow.

   •   Common Record Format. JFMIP requires that a travel system must provide a
       standard record format and data elements that will allow an effective interface of
       the transactions that flow from the travel system to the core financial system. TM
       and the core financial system did not have a standard record format. Management
       stated they knew of three common fields between the two systems: traveler name,
       social security number, and travel authorization number. Of those fields, two—
       traveler name and social security number—were used for other disbursement
       transactions in TM and the core financial system, making use of those fields to
       research a particular travel transaction difficult. IFMP Competency Center
       management informed us that the third common field—travel authorization
       number—was in a different format in the two systems and as a result could not be
       electronically linked between the TM and the core financial system. Because of
       the lack of a common record format, any research required for a particular travel
       transaction would have to be performed manually, and the system as designed
       could not electronically track the travel voucher from submission through
       payment.

   •   Communication. JFMIP requires that payment information be accessible and
       accurate between the core financial system and any subsidiary systems. It also
       specifies that there should be a two-way automated interface between the travel
       system and the core financial system. We found that communication between TM
       and the core financial system was not adequate because the core financial system
       did not maintain accessible payment information for all travel transactions
       processed. Travel transactions that were rejected in the core financial system
       were not interfaced back to TM. Rejected transactions occurred when errors
       existed in vouchers transmitted from TM to the core financial system. We noted
       that many of the vouchers in our sample had been rejected multiple times from the
       core financial system and then resubmitted from TM to the core financial system
       weeks or months later. IFMP Competency Center personnel told us that
       transaction rejections have been difficult for Centers to correct. That condition
       made it difficult to determine whether a voucher was actually paid. The lack of
       effective communication between TM and the core financial system resulted in
       inaccurate, incomplete, and inconsistent data between the two systems.

   •   Data Retrieval. IFMP personnel stated that the BW maintains payment
       information by month and year, but not by exact payment date. As a result, late
       payment and interest data could not be retrieved in the two systems without the
       full payment date. Also, the BW did not provide information on either interest
       paid or incurred. The process of determining whether interest was due to a
       traveler could be performed only through a manual examination of the daily
       transaction register listings.




                                            5
   •   Control Totals. Control totals are totals developed on important data fields in
       input records and on the number of records processed to ensure that data were
       transmitted, converted, and processed completely and accurately. IFMP
       personnel stated that when TM sends authorizations and vouchers into the core
       financial system, only transaction counts are compared. No dollar or other control
       totals were compared to ensure that all TM transaction data were accurately
       included in the core financial system.

The interface problems occurred because NASA management, in order to meet the IFMP
implementation schedule, implemented the travel module at the same time they
implemented the core financial system. The IFMP TM Project Office Deputy Director
stated that management originally intended to implement TM as a fully integrated
system, meaning that TM and the core financial system would have the same record
formats and communications capabilities. However, with the intense work and tight
schedules involved in implementing both the travel module and the core financial system
in the same time frame, sufficient time was not available to meet that requirement.

Without effective interfaces between TM and the core financial system, the reporting
problems previously discussed cannot be adequately resolved. Only after resolution of
those problems will management be able to monitor travel data to ensure proper use and
accountability of travel funds. Further, we identified other issues that complicated this
matter, specifically:

   •   Management informed us in August 2003 that the core financial system calculated
       the number of days for paying vouchers based on an erroneous date.

   •   The TM traveler and preparer signature fields were not separately recorded to
       ensure data integrity.

   •   Management used the live TM system to train users. Personnel entered records
       into TM to train users in using the TM system resulting in unnecessary data in the
       system.

Appendix E provides additional details on the effects of the inadequate interface with the
core financial system.

Recommendations, Management’s Response, and Evaluation of Management’s
Response

The Program Executive Officer for IFMP should:

   4. Develop additional control totals that will validate TM information
      interfacing with the core financial system, such as, dollar control totals.




                                            6
Management’s Response. Concur. Management will create an additional report that
will provide dollar control totals for individual runs. The report will be developed and
implemented in October 2004. See Appendix F.

Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and
open for reporting purposes until we verify and analyze the report in October 2004. At
that time, we will validate that the interfacing information is useful and in a format usable
for both the core financial and travel manager user communities.

   5. Implement a process to track vouchers from traveler submission for
      approval through payment date, and include a standard record format
      between the TM and core financial system. The method should provide an
      ability to track the number of days to pay the voucher, beginning with the
      date the traveler submits a proper voucher, and include interest amounts
      incurred and paid. This process should also ensure that rejected
      transactions are identified and corrected in a timely manner.

Management’s Response. Concur. NASA travelers can track their vouchers from
submission for approval through payment date using the document status feature in TM
as well as a travel query in BW. The interface between TM and the core financial system
includes a standard record format, and a procedure is in place to ensure all rejected
transactions are recorded properly in the core financial system. See Appendix F.

Evaluation of Management’s Response. Management is responsive to the intent of the
recommendation. Completion date will be September 30, 2004. The recommendation is
resolved but will remain undispositioned and open for reporting purposes pending our
analysis of management’s actions as described below:

   •   The first part of the recommendation concerned implementing a process to track
       vouchers from travel submission through payment. Currently, the data linked
       status from the document status feature of TM does not indicate whether the
       transaction processed through the core financial system successfully.
       Management stated that it would provide us with a demonstration of how the
       feature can be accomplished using the BW. We will review the BW
       demonstration designed to track vouchers from their submission through payment.

   •   The second part of the recommendation concerned including a standard record
       format between the TM and the core financial system. Management stated that
       the interface between TM and the core financial system has always maintained a
       standard record format. However, we believe that TM and the core financial
       system lacked a standard record format and data elements that would allow an
       effective interface of the transactions as required by the JFMIP. Management
       stated that it would provide us with a demonstration showing how the BW can
       now provide a unique link between the two systems.



                                             7
   •   The third part of the recommendation was that TM should be able to track the
       number of days it took to pay the voucher, beginning with the date the traveler
       submits a proper voucher and include interest amounts incurred and paid.
       Management stated that the TM would be changed to maintain the first date a
       traveler submits a voucher as the beginning date in calculating interest incurred
       and paid. We will follow up this portion of the recommendation to ensure that the
       process is working correctly.

   •   The fourth part of the recommendation was that the travel process should ensure
       that rejected transactions are identified and corrected in a timely manner.
       Management stated that it now has a procedure in place that will ensure all
       rejected transactions are recorded properly in the core financial system and are
       provided the Travel Office at each Center. We will validate with the Travel
       Offices that they are now getting the information they need to correct rejects.

   6. Establish a procedure that will ensure the core financial system sends
      payment information and amounts to the TM for ready access and that, at a
      minimum, TM separately tracks the date of a traveler submitting a proper
      voucher for approval and the successful date of submission from TM to the
      core financial system.

Management’s Response. Concur. Management agrees that a need exists for a real-
time interface and to bring the Agency within full compliance with the JFMIP
requirements. Management initially stated that it would create a real-time integration
between TM and the core financial system that passes information back to TM from the
core financial system and maintains synchronization between the two applications.
NASA planned to have this upgrade with the core financial system release 5.2 scheduled
for April 2005. On August 20, 2004, management amended its response and stated that
after further analysis, it has determined that the cost and timing of implementing a real
time interface in the current TM would not be practical or cost effective. Instead, NASA
will implement the real-time interface with the migration of TM to eTravel in 2006.
Also, management will change TM to record the date the traveler initially submits a
proper travel voucher for use in computing any interest. TM will separately record each
date the travel voucher is sent to the core financial system. See Appendix F. Also, see
management’s amended response in Appendix G.

Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and
open for reporting purposes pending our analysis of TM’s ability to record the dates
travelers submit vouchers. We also plan to perform a separate review of eTravel in the
future to evaluate the effectiveness of the planned real time interface.

   7. Establish separate traveler and preparer signature fields in TM to ensure
      data accuracy, reliability, completeness, and consistency of these fields.




                                            8
Management’s Response. Concur. TM has always maintained separate traveler and
preparer fields. Management stated that, at the time of our audit it was not familiar with
the new system and as a result pulled information from the wrong field when providing
data for our request. Some of the data was unreliable as a result of the transition from
legacy systems to TM. Since the audit, the IFMP staff has become more familiar with
TM and can produce accurate and reliable data via table queries. See Appendix F.

Evaluation of Management’s Response. Management is responsive to the intent of the
recommendation. Completion date will be September 30, 2004. As detailed in this
report, we received TM data from management that contained hundreds of travel
transactions where the traveler signature name field was blank, contained the name of the
preparer (who was not the traveler), or contained a fictitious name. The recommendation
is resolved but undispositioned and open for reporting purposes pending our analysis of
management’s actions as described in Recommendation 5.

   8. Train users in a test environment that does not access and process live data
      in TM.

Management’s Response. Concur. Management will develop a Security Monitoring
Plan for checking the validity of newly created user identifications that would ensure
system users are not using the production database for other than production activity.
The Security Monitoring Plan will be available by August 31, 2004.

Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and
open for reporting purposes pending our receipt and analysis of the Security Monitoring
Plan and review of the instructions from the IFMP Competency Center to the NASA
Centers regarding training and testing in the production environment.

Other Matters

During our audit, we learned that one of the President’s 25 E-Government Initiatives,
E-Travel, has an administrative initiative underway that could potentially replace the
IFMP travel module. The Office of Management and Budget is responsible for oversight
of the E-Government initiatives. NASA plans to implement E-Travel by
September 30, 2006 as required by a proposed Federal Travel Regulation revision.
NASA management should implement recommendations presented in this report, along
with any other controls in the TM software, when implementing the E-Travel initiative.

Appendixes

Among the appendixes, note Appendix C, which identifies applicable Federal internal
control and travel requirements; Appendix D, which provides details on the travel
module’s ineffective reporting capabilities; and Appendix E, which provides additional
details on the effects of the inadequate reporting capabilities and interface with the core
financial system.

                                              9
List of Appendixes
Appendix A – Status of Recommendations

Appendix B – Objectives, Scope, and Methodology

Appendix C – Applicable Federal Internal Control and Travel Requirements

Appendix D – Travel Manager (TM) Reporting Deficiencies Identified
             in Gap Analysis Reports

Appendix E – Effects of Inadequate Reporting Capabilities
             and Interface With the Core Financial System

Appendix F – Management’s Response Dated June 17, 2004

Appendix G – Management’s Amended Response Dated August 20, 2004

Appendix H – Report Distribution




Acronyms Used in the Report

BW          Business Warehouse
GAO         Government Accountability Office
GSA         General Services Administration
IFMP        Integrated Financial Management Program
JFMIP       Joint Financial Management Improvement Program
OIG         Office of Inspector General
TM          Travel Manager


                                     10
                Appendix A. Status of Recommendations

 Recommendation        Resolved     Unresolved      Open/ECD*         Closed
       1                  X                      October 31, 2004
       2                  X                      October 31, 2004
       3                  X                      August 30, 2004
       4                  X                      October 31, 2004
       5                  X                      September 30, 2004
       6                  X                      December 31, 2006
       7                  X                      September 30, 2004
       8                  X                      August 31, 2004

* ECD – Estimated Completion Date




                                      11
              Appendix B. Objectives, Scope, and Methodology

Objectives

The audit objectives were to determine if (1) the Integrated Financial Management
Program (IFMP) travel module contained appropriate management controls for
monitoring the use of travel funds and complied with Federal travel system requirements,
and (2) whether NASA travelers were reimbursed within the required 30 days and, if not,
whether interest was paid for late reimbursements.

Scope and Methodology

To meet our objectives we:

•   Reviewed Federal and NASA requirements, policy, and guidance related to travel, the
    Gelco Information Network, Inc.’s, commercial-off-the-shelf software product Travel
    Manager (TM), and related travel systems.

•   Interviewed representatives from NASA Headquarters, IFMP Travel Management
    Project Office – Langley Research Center (Langley), and IFMP Competency Center
    personnel in Huntsville, Alabama.

•   Requested either a standard report or an ad hoc retrieval of travel vouchers containing
    traveler name, Center, voucher number, voucher submission date, voucher payment
    amount, voucher payment date, and interest incurred or paid for the period
    November 2002 through April 2003. We limited our request to only those Centers
    that had implemented the core financial system.

•   Analyzed data received based on the above request to determine if (1) travel
    payments were timely, (2) the interface between TM and the core financial system
    was adequate, (3) the TM reports module was adequate, and (4) TM data was
    accurate, reliable, complete and consistent.

In conducting our audit we identified an issue regarding NASA Headquarters’
noncompliance with Federal travel requirements and have reported on this issue in the
Findings section of the report.

Use of Computer-Generated Data

We obtained computer-generated data from TM. We attempted to trace the data through
the core financial system but were unable to do so because of reporting and interface
limitations. In addition, we manually researched eight vouchers from TM and in six
instances we could not find those vouchers in the core financial system. Payment
information was not updated in TM, which indicated that data in TM might not be
accurate, reliable, complete, or consistent. Because of the nature of the finding, we were


                                            12
Appendix B

unable to determine whether data from TM were accurate, reliable, complete, or
consistent. Consequently, in the audit conclusions we did not rely on the data we pulled.
Our concerns are discussed in this report.

Management Controls Reviewed

We interviewed officials at NASA Headquarters, Langley, and the IFMP Competency
Center to identify and assess management controls related to reporting, the interface
between TM and the core financial system, and data that are in TM. We consider the
inadequate reporting capabilities and interface weaknesses, which resulted in the lack of
data accuracy, reliability, completeness, and consistency, to be control weaknesses that
need management attention. We have addressed our concerns in the body of this report.

Audit Work

We performed audit work at NASA Headquarters, Langley, and the IFMP Competency
Center from April 2003 through January 2004 in accordance with generally accepted
government auditing standards.




                                            13
      Appendix C. Applicable Federal Internal Control and Travel
                  Requirements

The Government Accountability Office (GAO) defines the internal control activities
Federal agencies use for ensuring that their directives are carried out. The GAO
guidelines, “Standards for Internal Control in the Federal Government,” dated
November 1999, define monitoring as one specific control activity and state, “Internal
control should generally be designed to assure that ongoing monitoring occurs in the
course of normal operations.”

The Joint Financial Management Improvement Program (JFMIP) requires that travel
systems “document travel information so it is easily and readily available for analysis,
decision support, operational control and external regulatory reports.”

Specifically, JFMIP requires that travel systems must:

            Allow for the formatting of reports to present different sorts of the
            information, the presentation of only specific information in the format
            selected, the summarization of data, and the modification of report formats to
            tailor the reports to the specific requirements of the agency.

            Provide the capability to download data to spreadsheets or other analytical tools.

JFMIP also requires that travel systems maintain standard data elements that will
generate standard and ad hoc reports, maintain and report obligation and liquidation
information, and provide a capability to run on-demand analysis reports. JFMIP specifies
that the interface between the travel and the core financial system must be linked in such
a way that the system efficiently and effectively ensures data accuracy and integrity;
provides a standard record format in the two systems; provides control totals and record
counts for ensuring integrity of received and processed transactions; and provides two-
way interface support between the systems. JFMIP requires reliable and accurate data
and complete audit trails in a Government agency’s integrated financial management
system.

The Federal Travel Regulation requires that Government agencies reimburse travelers
within 30 calendar days after a traveler submits the proper travel claim. For any proper
travel claim that is not reimbursed within 30 days, the agency must pay a traveler the
amount due plus interest on that amount.




                                                  14
Appendix D. Travel Manager (TM) Reporting Deficiencies Identified in
            Gap Analysis Reports
The table below shows some of the reporting deficiencies each gap analysis performed
identified.
         Functional Gap Analysis: Reports Needed But Not Produced in TM

              2001                             2002*                                2003**

•   Federal Travel Questionnaire       •   Accounting Summary      •   Standard reports problems
    (required by General Services      •   Document Summary        •   Current TM reports were not sufficient
    Administration [GSA])              •   Public Key                  to meet the pilot requirements
•   Report on Acceptance of                Infrastructure          •   GSA Federal Agency Travel
    Payment from a Non-Federal             Certificate List            Information Request
    Source for Travel Expenses         •   Budget, Route and       •   Acceptance of Payment from a Non-
    and Invitational Travel                Review Reports              Federal Source for Travel Expenses
    Report listing travel paid by      •   Web-based reports       •   International Transactions of the
    NASA for non-NASA                      not working and             Federal Government
    personnel (required by NASA            either printed          •   Cost comparison by destination
    Financial Management                   incorrectly or not at   •   Ad hoc retrieval capabilities
    Manual)                                all                     •   Notification to travelers and Centers for
•   Foreign Travel Report                                              late travel vouchers
    (required by NASA Office of                                    •   Payroll offset, other collections, and
    the Chief Financial Officer)                                       earned income report
•   Letters to travelers who have                                  •   Document queue report
    not submitted a voucher
                                                                   •   Foreign travel report
    within 5 days
                                                                   •   Report of payments from non-Federal
•   Letters to the traveler
                                                                       sources
    explaining which claimed
                                                                   •   Travel documents not signed
    expenses were not allowed on
                                                                   •   Travel prompt processing report to
    the voucher and why
                                                                       report timeliness of the TM software
•   Document Queue Report
                                                                   •   Document adjusted status report to
•   Earned Income Report
                                                                       report on all documents stamped
•   Travel Prompt Processing
                                                                       “adjusted”
    Report listing data on
                                                                   •   Government bill of lading payment
    timeliness of processing
                                                                       worksheet
    vouchers within TM
                                                                   •   First class travel report
•   Document Adjusted Status
                                                                   •   Notification to travelers: when a travel
    Report listing all documents
                                                                       package is ready to be picked up; the
    stamped "adjusted"
                                                                       travel claim is expected to be filed;
•   First Class Travel Report
                                                                       anticipated reimbursement deposit date
    listing all “first class” travel
                                                                   •   Notify Center and traveler when they
    that has taken place
                                                                       have not submitted a travel claim
•   Report total travel and
                                                                       within 5 days
    compare costs by travel
                                                                   •   Print GSA-approved travel vouchers
    location


 * The 2002 deficiencies were in addition to those deficiencies cited in 2001.
** The 2003 deficiencies included deficiencies cited in the 2001 and 2002 gap analysis reports and also
   additional requirements.




                                                     15
Appendix E. Effects of Inadequate Reporting Capabilities and
            Interface with the Core Financial System
Because the travel module did not comply with Federal travel reporting and interface
requirements, management was unable to (1) produce a standard report, (2) identify and
resolve questionable travel transactions, (3) certify the integrity of travel data, (4) provide
adequate service to NASA travelers, and (5) accurately calculate days required to pay
travelers and interest owed to travelers for late payments. As a result, management was
not able to monitor the travel data of the Agency to ensure proper use of funds.

Standard Report Production. The travel module’s reporting deficiencies were evident
when NASA management could not provide us with what we believe was very basic
travel-related information. In May 2003, some of the senior management officials at
NASA raised a concern to the Office of Inspector General (OIG) that some NASA
travelers were not being reimbursed in a timely manner for travel expenses. To review
the issue, we requested from the Agency Business Process Lead for Travel on
May 20, 2003, either a standard report or an ad hoc retrieval of travel vouchers. We
requested that the report contain traveler name, Center, voucher number, voucher
submission date, voucher payment amount, voucher payment date, and interest incurred
or paid for the period November 2002 through April 2003.

At the time of our request, Integrated Financial Management Program (IFMP) personnel
told us that Travel Manager (TM) did not have a standard report that would meet our
requirements. They also stated that ad hoc reports within TM would be needed to
produce the required report. On June 10, 2003, IFMP Competency Center management
stated that a second ad hoc retrieval would have to be run in the core financial system to
obtain applicable payment and interest-paid information because that information was not
maintained in TM.

On July 10, 2003, management gave us a spreadsheet that contained some of the
information available in TM. The information we received did not include voucher
payment amounts or voucher payment dates. In addition, the information was in a format
that was difficult to use. Management explained that the requested information could be
automatically matched with payment and interest information from the Agency’s core
financial system to provide a complete audit trail for all transactions. However, after
researching the automatic matching of data between the two systems, management told
us in August 2003 that the requested report could not be produced from the core financial
system but could possibly be produced in the Business Warehouse (BW). Management
never did provide the requested report.

Questionable Travel Transactions. Management could not identify or resolve
questionable travel transactions that we identified during the audit. The July 10, 2003,
spreadsheet that management provided contained data inconsistencies and missing
information. Of the 12,053 travel transactions in the spreadsheet, we identified
1,821 (15 percent) travel transactions that were questionable. Details of the questionable
transactions follow:

                                              16
Appendix E

•   981 transactions may not have been submitted to the core financial system within
    30 days of traveler submission, as the Federal Travel Regulation requires. In our
    judgmental sample of eight vouchers, we were able to determine that only two
    vouchers researched from TM to the core financial system were actually paid, and we
    believe that they were late payments. The other six vouchers could not be located in
    the core financial system. TM records the date it sends a voucher to the core financial
    system. The core financial system does not, however, send acceptance information,
    payment amounts, or payment dates to TM. Therefore, when TM records a date of
    voucher submission, determining whether this was the date the voucher was
    successfully processed is not possible because the dates of successful submissions are
    not separately recorded. Management indicated that traveler voucher submission
    dates through payment dates are not maintained for tracking interest and that only the
    date TM submits the voucher to the core financial system through payment would be
    tracked in the core financial system. Management also indicated that the two
    vouchers we believe were paid late were considered as on time by IFMP personnel
    because the core financial system does not calculate travel from the date the traveler
    submits a proper voucher for approval but uses the date the transaction is successfully
    submitted to the core financial system.

•   533 transactions more than 30 days old in TM contained no evidence that they were
    ever sent to the core financial system for payment. We were unable to determine
    whether the transactions were awaiting processing in TM, or whether the vouchers
    were submitted for payment in the core financial system. IFMP Competency Center
    personnel stated that they could not determine if the vouchers were paid but believed
    the transactions had been paid using a process that bypasses TM voucher
    submissions. When TM is bypassed and the voucher is paid in the core financial
    system, the payment cannot be linked to original TM data, and the voucher record in
    TM cannot be traced to its payment in the core financial system. Without the
    information from both systems, the only control that ensures that the traveler received
    payment is a traveler complaint.

•   307 transactions in the live system had names in the “Traveler Name” field that were
    not actual NASA travelers. Some of the questionable names were the names of Snow
    White’s dwarfs (83 vouchers) or confusing entries such as “Pre-SAP Conversion” or
    “ECPB-22.” During the audit, we were told that the vouchers related to the fictitious
    travelers did not result in any improper payments. Management stated that they
    believed the 307 transactions were used to process one payment for many vouchers
    into the core financial system, and that they have used this method of processing to
    (1) process multiple travel payments during the implementation of TM and its
    integration with the core financial system, and (2) train personnel in performing this
    procedure. We were unable to determine if any improper payments were made with
    regard to these transactions. As part of management’s response, management
    directed each Center to research these and other questionable transactions to ensure


                                            17
                                                                                Appendix E

    integrity of the transactions. We will review the Center research during audit follow-
    up to ensure that no improper payments were made. Because of the lack of control
    over the data and missing audit trails, we question using this method for training.
    Two additional problems were found relating to the “Traveler Name” field. The
    Traveler Name field was not adequate or unique enough to link vouchers between
    TM and the core financial system. In TM, a traveler name may have many travel
    authorizations and vouchers linked to it. In the core financial system, traveler name
    retrieval would include any travel authorized and paid as well as other expenditures
    paid for that traveler name.

    Instances where TM contained either the name of the traveler or the preparer in the
    signature field for traveler name also existed. Management stated the condition
    occurred because the system showed only the name of the last person to access the
    record before submission to the core financial system. Management cannot monitor
    travel without knowing the dates each user prepares data in the system or the name
    signature field containing accurate and complete data. Management needs a unique
    field that can link records between the two systems to perform its required monitoring
    function.

•   23 transactions were submitted to the core financial system without any traveler
    details, such as traveler name and traveler submission date, for the voucher number.
    We could not determine whether the transactions were paid or not paid. IFMP
    Competency Center personnel could not explain why that occurred and recommended
    further investigation at the Center level as needed. Competency Center personnel
    stated that they believed transactions with blank traveler names and submission dates
    were not possible to process in TM without a valid traveler name and social security
    number included in both TM and the core financial systems. Further information
    could not be obtained because there was no traveler name, social security number, or
    travel authorization number to research in the core financial system.

We discussed the issues with Headquarters and IFMP Competency Center personnel.
The personnel stated that they were not able to research the questionable data in the core
financial system because of the reporting limitations and interface inadequacies described
above.

Integrity of Travel Data. NASA management lacked management control tools and the
detailed understanding and experience of using the tools necessary for analyzing,
monitoring, and researching Agency travel data to ensure the proper use and
accountability of travel funds. Without adequate reporting capabilities, management
cannot easily detect travel irregularities in a timely manner such as travel transactions by
date, Center, or individual traveler. Further, we were unable to track travel transactions




                                             18
Appendix E

 from initial authorization through payment and posting to Agency accounting records,
which would have ensured that travel vouchers were paid and accounted for
appropriately.

Level of Service to Travelers. Because management could not produce a report of travel
voucher submission and reimbursement dates, management could not determine if NASA
travelers were reimbursed timely or received interest for reimbursements that took more
than 30 days to process.

Calculation of Days and Interest. Management informed us in August 2003 that the core
financial system calculated the number of days for paying vouchers, and that the
calculation was based on the date vouchers were successfully submitted from TM to the
core financial system. However, the Federal Travel Regulation requires that interest be
calculated based on the date the traveler submitted an acceptable voucher into TM. This
means that when NASA calculated the number of days for paying travel vouchers and
interest on payments, the number of days for paying travel vouchers would not have been
calculated correctly. By using a later date in the calculation of number of days to pay
vouchers, the interest calculation would have also been incorrect and would have had the
effect of underpaying the traveler.




                                           19
Appendix F. Management’s Response Dated June 17, 2004




                         20
Appendix F




             21
     Appendix F




22
Appendix F




             23
     Appendix F




24
Appendix F




             25
     Appendix F




26
Appendix F




             27
Appendix G. Management’s Amended Response Dated August 20, 2004




                              28
                       Appendix H. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

Administrator
Deputy Administrator
Chief of Staff
Associate Deputy Administrator for Institutions and Asset Management
Associate Deputy Administrator for Technical Programs
Program Executive Officer for Integrated Financial Management
Chief Financial Officer
Deputy Chief Financial Officer for Financial Management
Deputy Chief Financial Officer for Resources (Comptroller)
Acting Director, Integrated Financial Management Program Office
General Counsel
Assistant Administrator for Legislative Affairs
Associate Administrator for Institutions and Management

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Jet Propulsion Laboratory
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, Government
Accountability Office
Managing Director, Financial Management and Assurance, Government Accountability
Office




                                          29
Appendix H

Non-NASA Federal Organizations and Individuals (continued)

Managing Director, Natural Resources and Environment, Government Accountability
 Office
Director, Information Technology, Government Accountability Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         30
Additional Copies
To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232.


Comments on This Report
In order to help us improve the quality of our products, if you wish to comment on the
quality or usefulness of this report, please send your comments to Mr. Lee T. Ball,
Director, Quality Control Division, at Lee.T.Ball@nasa.gov, or call (757) 864-3269.


Suggestions for Future Audits
To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

     Assistant Inspector General for Auditing
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Major Contributors to the Report
Neil Ryder, Office of Audits, Director, Financial Management Directorate

Karl Allen, Project Manager, Financial and Infrastructure Management Directorate

Linda Wagner Anderson, Lead Auditor, Financial and Infrastructure Management
  Directorate

Bret Skalsky, Auditor, Financial and Infrastructure Management Directorate
           Report Recipients

Audit Liaison Representative, Office of Chief Financial Officer
Audit Liaison Representative, Langley Research Center
Audit Liaison Representative, George C. Marshall Space Flight Center
Audit Liaison Representative, Headquarters Management Assessment
       Division



cc:
Program Executive Officer for Integrated Financial Management
Chief Financial Officer
Acting Director, Integrated Financial Management Program Office
Core Financial Project Manager
